<html>
<title> - HALFWAY TO THE 2010 CENSUS: THE COUNTDOWN AND COMPONENTS TO A SUCCESSFUL DECENNIAL CENSUS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
     HALFWAY TO THE 2010 CENSUS: THE COUNTDOWN AND COMPONENTS TO A 
                      SUCCESSFUL DECENNIAL CENSUS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON FEDERALISM
                             AND THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 19, 2005

                               __________

                           Serial No. 109-80

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-945                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

               Subcommittee on Federalism and the Census

                   MICHAEL R. TURNER, Ohio, Chairman
CHARLES W. DENT, Pennsylvania        WM. LACY CLAY, Missouri
CHRISTOPHER SHAYS, Connecticut       PAUL E. KANJORSKI, Pennsylvania
VIRGINIA FOXX, North Carolina        CAROLYN B. MALONEY, New York
------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     John Cuaderes, Staff Director
            Ursula Wojciechowski, Professional Staff Member
                         Juliana French, Clerk
            Adam Bordes, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 19, 2005...................................     1
Statement of:
    Cooper, Kathleen, Under Secretary for Economic Affairs, U.S. 
      Department of Commerce; and Charles Louis Kincannon, 
      Director, U.S. Census Bureau...............................    14
        Cooper, Kathleen.........................................    14
        Kincannon, Charles Louis.................................    21
    Naymark, Joan, director, research and planning, Target Corp., 
      testifying on behalf of the U.S. Chamber of Commerce; 
      Andrew Reamer, deputy director, urban markets initiative, 
      Brookings Institution; and Jacqueline Byers, director of 
      research, National Association of Counties.................    36
        Byers, Jacqueline........................................    59
        Naymark, Joan............................................    36
        Reamer, Andrew...........................................    51
Letters, statements, etc., submitted for the record by:
    Byers, Jacqueline, director of research, National Association 
      of Counties, prepared statement of.........................    61
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri , prepared statement of..................    78
    Cooper, Kathleen, Under Secretary for Economic Affairs, U.S. 
      Department of Commerce, prepared statement of..............    17
    Kincannon, Charles Louis, Director, U.S. Census Bureau, 
      prepared statement of......................................    23
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     9
    Naymark, Joan, director, research and planning, Target Corp., 
      testifying on behalf of the U.S. Chamber of Commerce, 
      prepared statement of......................................    39
    Reamer, Andrew, deputy director, urban markets initiative, 
      Brookings Institution, prepared statement of...............    53
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4


     HALFWAY TO THE 2010 CENSUS: THE COUNTDOWN AND COMPONENTS TO A 
                      SUCCESSFUL DECENNIAL CENSUS

                              ----------                              


                        TUESDAY, APRIL 19, 2005

                  House of Representatives,
         Subcommittee on Federalism and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.
    Present: Representatives Turner, Dent, and Maloney.
    Staff present: John Cuaderes, staff director; Ursula 
Wojciechowski, professional staff member; Juliana French, 
clerk; Neil Siefring, legislative director for Representative 
Turner; Erin Maguire, legislative correspondent for 
Representative Dent; Jim Moore, counsel for Committee on 
Government Reform; John Heroux, counsel; Adam Bordes and David 
McMillen, minority professional staff members; and Cecelia 
Morton, minority office manager.
    Mr. Turner. Good morning. We call to order the meeting on 
the Subcommittee on Federalism and the Census of the Government 
Reform Committee. Our hearing topic today is Halfway to the 
2010 Census: The Countdown and Components to a Successful 
Decennial Census.
    Census day is April 1, 2010, and we have just passed the 
midway point. The enumeration of all American residents will 
require the greatest peacetime mobilization of temporary 
workers for a Federal agency since the 2000 census. Having 
jurisdiction over the census matters, the subcommittee called 
today's hearing to review the Census Bureau's preparations for 
the decennial census.
    Today, we will examine the three main components that are 
key to the upcoming census: the America Community Survey [ACS]; 
the master address file [MAF], and the topologically integrated 
geographic encoding and referencing [TIGER], enhancement 
program; and the short-form-only census. It is important for 
Congress and the American public to understand the role and 
value of each of these components for the implementation of a 
successful census.
    The first component is the modern short-form census which 
asks only seven questions. It will be mailed to every known 
residence and will provide the national head count. The short 
form will be complimented by the second component of the 
census, the American Community Survey, the replacement of the 
decennial long form, which was fully implemented at the 
beginning of this year. A quarter million American Community 
Surveys will continue to be mailed out monthly, providing more 
timely characteristic data necessary for policy decisions 
regarding government programs such as community block grants, 
school lunch programs and highway planning.
    The MAF/TIGER Enhancement Program is the third component 
critical to the success of the 2010 census. The MAF program is 
designed to be a complete and current list of all addresses. 
The TIGER portion is a digital data base that serves to upgrade 
and improve street location information, bringing that 
information into alignment with Global Positioning System 
coordinates.
    In addition to examining these three census components, the 
subcommittee will also seek lessons learned from prior 
censuses.
    The census has been administered every 10 years since the 
Revolutionary War. The Constitutionally mandated enumeration of 
residents is politically important in that it directly affects 
the reapportionment of Representatives in Congress, the 
redistribution of tax dollars for programs and services, 
redrawing State legislative districts, and public policy and 
business decisions. Considering that, we must ensure that every 
effort is being made to achieve the most accurate enumeration.
    The 1990 census fell short of expectations primarily 
because of costs. The census greatly exceeded its budget. In 
contrast, the 2000 census is considered a success. This 
traditional census was done on time and within budget on 
account of better management, less employee turnover, and on 
emphasis of counting actual people.
    Although the 2000 census was an improvement over the 1990 
census, it was still expensive, used too much paper, and was, 
in some cases, inefficient. Having learned valuable lessons 
from both of those censuses, I am eager to hear from our first 
panel what the Census Bureau has already accomplished, what 
efforts are currently underway, and what more is planned for 
the next 5 years to make certain that we get the most accurate 
census count on time and within budget.
    On our first panel, we welcome remarks from the Honorable 
Kathleen Cooper, Under Secretary of Economic Affairs at the 
Department of Commerce, and the Honorable Charles Louis 
Kincannon, Director of the Census Bureau.
    Our second panel of witnesses consists of representatives 
of the stakeholder community who will share their views on the 
significance of an accurate census as it pertains to data 
collection and related subjects.
    First, we will hear from Ms. Joan Naymark, director of 
research and planning for Target Corp., on behalf of the U.S. 
Chamber of Commerce. Second, we will hear from Dr. Andrew 
Reamer, the deputy director of the urban markets initiative at 
the Brookings Institute. Finally, we will hear from Ms. 
Jacqueline Byers, director of research at the National 
Association of Counties.
    I look forward to the expert testimony our distinguished 
panel of leaders will provide us today. And we thank you for 
your time today, and we welcome you.
    At this time, I will yield to Mrs. Maloney and ask if she 
has an opening statement.
    [The prepared statement of Hon. Michael R. Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T3945.001
    
    [GRAPHIC] [TIFF OMITTED] T3945.002
    
    Mrs. Maloney. I do have an opening statement, and I 
understand that Ranking Member Clay is on his way, but I will 
begin right now and certainly thank you, Mr. Turner, and note 
that his daughter, Carolyn, is here writing about the census 
for her school, so that is great.
    I am pleased to see the subcommittee paying attention to 
the census early in the session. Many believe that work on the 
2010 census is just beginning, but the truth is really just the 
opposite. By the end of this Congress, the Census Bureau will 
have made most of the important decisions on how the 2010 
census will be conducted. Our opportunity to review and comment 
without causing major disruption will have passed. As we saw in 
the last census, congressional intervention in the design of 
the census during the last 2 years prior to the census is very, 
very costly. As a result of those changes and poor budgeting by 
Congress, the 2000 census was funded as an emergency. I hope we 
do not find ourselves in the same situation to 2010. The 
funding request in 2010 for the census will be somewhere 
between $6 and $10 billion, and we should be preparing to pay 
that bill today.
    Including funds appropriated for 2005, Congress has already 
spent approximately $750 million on the 2010 census. Those 
costs have been in three areas: The American Community Survey, 
improving the census maps and geographic software, and in basic 
planning.
    The American Community Survey is nearing full completion. 
In the last Congress, both the House and Senate could not find 
the full $165 million necessary for the full implementation. 
Thanks to the vocal support of many of the individuals and 
organizations in the audience today, the Senate was convinced 
to go along with the House mark of $145 million. However, 
almost full funding is not good enough. If Congress will not 
commit to full funding for the American Community Survey, we 
should just plain kill it and begin planning for another long 
survey form in 2010. So getting the funding is tremendously 
important.
    Let me be clear, I have supported the American Community 
Survey for nearly 10 years now. I believe in it, and I believe 
it should go forward. However, partial funding will result in 
numbers that are less accurate. Those numbers will be used to 
distribute billions of dollars in Federal funds. That 
distribution will be less fair if the numbers are less 
accurate.
    When planning for the 2000 census begun, Congress asked the 
Census Bureau to design a census that would be more accurate 
and less expensive; we've got neither. According to GAO, the 
plans for the 2010 census promised that the real dollar cost 
per household will increase almost 50 percent. The Census 
Bureau is making few comments on how accurate it will be and 
are even less forthcoming of what we will know about the 
accuracy of the 2010 census.
    The procedures for measuring the accuracy of the 2000 
census were well known long before the census. The methodology 
was openly debated in professional associations and in 
Congress. We are still waiting to hear how accuracy in the 2010 
census will be measured. I believe the Census Bureau should 
immediately present to Congress a fully developed plan for how 
it intends to measure accuracy in the 2010 census.
    As GAO has pointed out, there is considerable technical 
work remaining to be done before the American Community Survey 
can adequately replace the long form and shoulder the burden of 
distributing Federal funds. One of those hurdles is the 
accuracy of the annual estimates that are used to control the 
ACS's numbers. Last year, New York City challenged the 2003 
estimate for the city and won. The Census Bureau increased the 
estimate for Brooklyn and Queens, adding more than 29,000 
people to the city's population.
    Just last week, the Census Bureau released the 2004 county 
estimates. Those estimates rely in part on data from the IRS 
but fail to take into account the dynamics of the New York City 
low-income population. New York will again challenge those 
estimates, and I am sure that the city will once again prevail.
    The issue is not just that the estimates for New York City 
are wrong. New York City has one of the finest demographers in 
the country, working to make sure that the Census Bureau gets 
it right. Hundreds of cities across the country will be 
disadvantaged because they don't have the skilled staff to 
challenge the Census Bureau. The ACS and the public will suffer 
from those inaccuracies.
    One of the ways communities can work to make sure they get 
the best census count possible is the Local Update of Census 
Addresses [LUCA] program. Congress passed legislation in 1994 
to allow local officials to view the confidential address lists 
and make corrections. Unfortunately, for most cities, that 
process was cumbersome and confusing. Again, New York City took 
full advantage of the program because of its excellent staff. 
Most other cities did not fare as well. The Census Bureau 
should be working now with local governments to help them 
prepare for the 2010 LUCA. Instead, it appears that the 2010 
address list will be just like 2000, cumbersome, confusing and 
full of errors.
    I would like the Census Bureau to provide the committee 
detailed plans on what it is going to do in 2006 to assist 
local governments to prepare for reviewing the 2010 address 
list. That work should begin in 2006, and the plan should be 
before Congress right now.
    We all agree that the census is vitally important to the 
public and its government. It's the one thing that we all 
participate in. That is why we will spend nearly $12 billion on 
the 2010 census. If we are going to get full value for our 
money, we need greater transparency, more public review and 
debate, and we need the information now.
    I would like to close on what I consider a very 
discouraging note. The Census Bureau has disbanded the 
Decennial Census Advisory Committee and has put in place the 
2010 Census Advisory Committee. The charters for these two 
committees are nearly identical. It appears that the purpose of 
this change is simply to change the membership of this 
committee. This does not reflect well on the Census Bureau and 
does not inspire confidence that the advisory committee process 
will be a meaningful one for the census as it was leading up to 
the 2000 census.
    I, again, want to thank Chairman Turner for holding this 
hearing. There is a great deal of work to be done in the next 
year, and I am very glad that the committee is focusing on this 
very important issue and moving the process forward. So I thank 
you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T3945.003

[GRAPHIC] [TIFF OMITTED] T3945.004

[GRAPHIC] [TIFF OMITTED] T3945.005

[GRAPHIC] [TIFF OMITTED] T3945.006

[GRAPHIC] [TIFF OMITTED] T3945.007

    Mr. Turner. Thank you, Mrs. Maloney.
    We will now start with the witnesses. Each witness has 
kindly prepared written testimony which will be included in the 
hearing of this record. Witnesses will notice that there is a 
timer with a light at the witness table. The green light 
indicates that you should begin your prepared remarks, and the 
red light indicates that time has expired.
    It is the policy of this committee that all witnesses be 
sworn in, so if you would please rise and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Turner. Let the record show that all the witnesses have 
responded in the affirmative, and we will begin this panel with 
Honorable Kathleen Cooper, Under Secretary for Economic 
Affairs, U.S. Department of Commerce.

  STATEMENTS OF KATHLEEN COOPER, UNDER SECRETARY FOR ECONOMIC 
    AFFAIRS, U.S. DEPARTMENT OF COMMERCE; AND CHARLES LOUIS 
            KINCANNON, DIRECTOR, U.S. CENSUS BUREAU

                  STATEMENT OF KATHLEEN COOPER

    Ms. Cooper. Good morning, Chairman Turner and Mrs. Maloney.
    As you mentioned, I serve as Under Secretary for Economic 
Affairs at the Commerce Department. My responsibilities include 
advising the Secretary of Commerce on economic policy, and 
exercising managerial direction over the Bureau of Economic 
Analysis and the Census Bureau.
    I want to thank you, Chairman Turner, and this subcommittee 
for your support. Your predecessor, Representative Adam Putnum, 
Chairman Tom Davis of the full committee, and Chairman Frank 
Wolf also have been key architects in the direction of the 2010 
census.
    Those in Congress who may not be aware, as this group is, 
of the cyclical nature of the census often see the period 
between censuses as an opportunity to shift scarce fiscal 
resources to other projects. Planning, testing and preparation 
needs to occur now for a successful count in 2010.
    According to Article I, Section II of the Constitution, an 
enumeration of the inhabitants of the United States is the 
responsibility of the Congress. It is notable, perhaps for the 
Federalism Subcommittee, that the Framers did not put this 
responsibility under the powers of the executive branch, nor 
did they reserve it to the States. The Congress has delegated 
census-taking work to the Bureau.
    Essentially, the Census Bureau is your data collector and 
statistical contractor. The 2010 census represents a sea change 
in how we count our population. It also reflects our dedication 
to improving census procedures as our population and technology 
evolve.
    In 1790, U.S. Marshals travelled door to door on horseback 
to determine the number of residents in the original 13 States. 
In 2010, hundreds of thousands of enumerators will follow maps 
drawn with Global Positioning Satellite technology. In 1830, 
printed forms were used for the first time, replacing the 
Marshal's notebook. In 2010, enumerators will enter data in a 
handheld computer.
    Over the years, more and different questions have been 
included in the census. In 1840, questions on agriculture, 
mining and fishing were added. In 1940, the Bureau determined 
that only a sample of the population needed to complete the 
aptly named long form to understand the changing 
characteristics of our population.
    Importantly, the census will be taken in 2010 by short form 
only; that's because the American Community Survey is up and 
running, resulting in two important deliverables. First, with 
the American Community Survey in place, every household will 
receive a short form questionnaire in 2010. The short form has 
a much higher response. All of our census taking, manpower and 
resources can be dedicated to obtaining an accurate count of 
every person on April 1, 2010.
    Second, by having a continuous American Community Survey, 
Congress and the American people will have information on 
characteristics about our population every year. When city 
planners in Dayton need to consider a new bus route, they can 
refer to ACS data on commute times to work. Language needs in 
St. Louis schools can be considered based on new ACS data, not 
information from 2000. This year will see rich, long-form 
quality data for communities 250,000 or larger. Next year, we 
will have data for towns of 65,000. And in 2010, we will see 
ACS data for the smallest towns and neighborhoods.
    Long form data provided a once-a-decade snapshot, the ACS 
is a moving video image. Ultimately, the result will be 
increased accuracy in the 2010 enumeration.
    In April 2010, you will see the maximum capacity of census 
resources focused on finding and counting people. I hope and 
believe accuracy will be improved and the undercount narrowed.
    The American Community Survey questionnaire is very similar 
in content to the long form used in the census 2000. All the 
questions are responsive to a law, a statute or a court order. 
The Census Bureau has worked many years with Congress and other 
Federal agencies to ensure that answers provide the data to 
meet statutory requirements. Unfortunately, the Census Bureau 
has been ridiculed in the past for asking questions some 
believe to be intrusive, for instance, does this house, 
apartment or mobile home have complete plumbing facilities? But 
the Departments of Health and Human Services and Housing and 
Urban Development use these answers to determine public health 
policy and the condition of housing in remote areas and in low-
income neighborhoods. We ask every question for a reason; every 
answer is needed.
    A quarter of a million surveys are going out each month 
nationwide. Surveys touch every congressional district in the 
country, and the results will too.
    Census staff has made an impressive effort to alert 
congressional district offices to the benefits of ACS data. We 
hope your offices and those of your colleagues will encourage 
constituents to complete the ACS.
    Let me stress for a moment the confidentiality aspect of 
census taking. The answers provided on the ACS are 
confidential; the privacy of your constituents is protected.
    Census employees swear an oath to protect the data and the 
privacy of respondents. I have observed that they take that 
promise very, very seriously. And if they do not, penalties, 
including fines and Federal prison time, are severe. Census 
professionals know well that the quality of their products 
depends on respondent cooperation, and cooperation depends on 
trust. We are going to protect that trust.
    We thank Congress for its support and look forward to 
continuing our work with you to ensure a successful 2010 count. 
And I will be happy to take your questions at the appropriate 
time.
    [The prepared statement of Ms. Cooper follows:]

    [GRAPHIC] [TIFF OMITTED] T3945.008
    
    [GRAPHIC] [TIFF OMITTED] T3945.009
    
    [GRAPHIC] [TIFF OMITTED] T3945.010
    
    [GRAPHIC] [TIFF OMITTED] T3945.011
    
    Mr. Turner. Thank you.
    Mr. Kincannon.

              STATEMENT OF CHARLES LOUIS KINCANNON

    Mr. Kincannon. Good morning, and thank you, Chairman Turner 
and Mrs. Maloney and other members of the subcommittee for 
arranging this opportunity where the Census Bureau can update 
the Congress on plans for the 2010 decennial census program and 
progress so far.
    I want to assure the committee that our primary goal is an 
accurate decennial census. In 2010, we will meet this goal 
through the reengineered census process, a process that will 
deliver more timely data, reduce overall risk and contain 
costs.
    The process includes three integrated components: the 
American Community Survey; the MAF/TIGER Enhancement program; 
and the 2010 census, which will be a short-form-only 
enumeration.
    Today, I can assure you we are moving to take advantage of 
important technological and operational opportunities. 
Moreover, I am pleased to report that we are on schedule and on 
budget as we proceed with the 2010 decennial census program.
    The American Community Survey is the greatest revolution in 
decennial census taking in 20 years. The American Community 
Survey replaces the long form of the census, and it will 
deliver data to governments in increasing geographic detail 
between next summer and the summer of 2010.
    The American Community Survey, with the support of 
Congress, was fully implemented this year. We are very pleased 
to report that we have been able to keep up with this 
quadrupled workload. The work is on schedule and on budget. In 
the first monthly sample, I am pleased to report that we have 
received a 97 percent response rate, which is a very 
substantial achievement. This demonstrates the payoff for a 
well-conceived and supported testing program. The American 
Community Survey will provide more timely data for States and 
local communities, and it will allow the Census Bureau to focus 
its efforts in 2010 on the core Constitutional responsibility 
to conduct an accurate enumeration of every person living in 
America.
    However, this endeavor also depends on the MAF/TIGER 
enhancement program. The census, after all, has two principle 
requirements: to count every person living in America once and 
only once, and to count every person with a correct address. 
Ensuring accuracy of the addresses is the only guarantee for a 
fair distribution of resources and political power as they are 
distributed according to geographies, States and cities, tracks 
and blocks.
    MAF/TIGER tells us where people live and gives us a 
reasonable means of organizing our work. Moreover, the TIGER 
system is used by the U.S. Geological Survey for the National 
Map by commercial of companies for products such as Map Quest, 
and by State, local and tribal governments to improve their 
local GIS files.
    Important objectives of the enhancement program include 
realigning the TIGER map in order to take advantage of GPS 
tables, modernizing the processing system and expanding 
geographic partnerships with State, local and tribal 
governments. We have contracted with the Harris Corp. to 
realign the roads and features of all the U.S. counties by 
2008. Since 2003, the Harris Corp. has completed the 
realignment for more than 1,000 counties, with approximately 
2,300 to go. We are on schedule to achieve this objective.
    We need to modernize the MAF/TIGER processing system, 
replacing the home-grown system developed more than 25 years 
ago with a modern Oracle-based system. This will provide more 
flexible integration with other operations and a more customer-
friendly product for users.
    As we proceed, we are mindful that the TIGER system is a 
national treasure. We are working to expand partnerships that 
will benefit stakeholders in the exchange of geospatial 
information. This is an extensive effort, and we believe it 
will contribute to an accurate decennial census enumeration. 
And thanks to the American Community Survey, the 2010 census 
will be a short-form-only enumeration, meaning that we will 
focus our efforts on the quality of the count and census 
coverage.
    We began researching and testing for the 2010 census early 
in the decade, far earlier than for any previous census. The 
testing program began in 2003 with a national mail out. In 
2004, we conducted census tests in Queens and three counties in 
southwest Georgia. We successfully tested the use of handheld 
computers, like this device that I have, to conduct field data 
collection. We also tested new methods for improving coverage. 
We are conducting another national mail out test this year, 
focusing on improving the completeness and accuracy of 
reporting on the short form. We will conduct a replacement 
mailing for non-responding households, and for the first time, 
we will mail a bilingual questionnaire in selected areas. We 
believe these efforts will improve the accuracy of responses as 
well as coverage.
    We will take the results of the research that we have 
conducted so far into the field of 2006 as we conduct test 
censuses in a portion of Travis County, TX, and the Cheyenne 
River Reservation in South Dakota. One important goal of this 
testing program is to enable us to conduct a true dress 
rehearsal in 2008. We only get one chance to take the census, 
and we do not want to be forced to use untested procedures 
during the 2010 census, as that increases the risk of failures.
    In conclusion, we believe reducing the risk associated with 
the census is an investment in the Nation's future and one 
worth making. Congress has supported this investment thus far, 
and we ask for your continued support in this regard.
    Mr. Chairman, thank you for this opportunity. And I remain 
available to answer questions if you have them. Thank you, sir.
    [The prepared statement of Mr. Kincannon follows:]

    [GRAPHIC] [TIFF OMITTED] T3945.012
    
    [GRAPHIC] [TIFF OMITTED] T3945.013
    
    [GRAPHIC] [TIFF OMITTED] T3945.014
    
    [GRAPHIC] [TIFF OMITTED] T3945.015
    
    [GRAPHIC] [TIFF OMITTED] T3945.016
    
    Mr. Turner. Thank you both.
    I want to recognize Mr. Dent from Pennsylvania, who has 
joined us.
    And I want to thank Mrs. Maloney for recognizing my 
daughter Carolyn who is with us. I have both of my daughters in 
town with me today, and my daughter Jessica, who is 13, as I 
was leaving for this hearing, telling her that I was going to a 
hearing on the census, I thought I would ask her what is a 
census, and she said, ``That's when you count all the people on 
the planet.'' Now recognizing that your job is smaller than 
that, but still incredibly challenging and daunting, I 
appreciate your dedication to it. It is incredibly important 
for the number of reasons that you set forth and in my opening 
statement, specifically the allocation of dollars, the 
apportionment for representation.
    You talked about the processes that you are moving forward 
with in your preparation for 2010. In the past, there has been 
a significant amount of discussion concerning techniques, 
including sampling. So, for the record, does the census plan 
currently on using sampling to supplement its numbers for 
purposes of apportionment?
    Mr. Kincannon. No, Mr. Chairman. Our plans are not to do 
that. The reason is, in the first instance for apportionment, 
the law prohibits that. A law passed in 1975, I can't give you 
the citation, but it prohibits use of sample-based estimates 
for apportionment.
    But we have worked on the question of using sample and 
modeling-based estimates to change census results in an effort 
to make them more complete for 30 years. And in the 2000 
census, the Census Bureau worked for almost 3 years on trying 
to make a procedure that would work in improving the quality of 
results for the major census products. We were unsuccessful in 
that regard.
    Before I was named director, the Census Bureau made a 
decision that it was not feasible to use the figures in the 
process that we had in 2000 to provide adjusted figures for 
redistricting. And in fact, as we continued to work on those 
estimates, we learned that would have been a severe error. It 
was even more off as a measure of results than we had thought 
when the decision had to be made about redistricting.
    We continued to work until the winter of 2002/2003 to see 
if we could use the results to improve the quality of inter-
census demographic estimates, the estimates program that Mrs. 
Maloney was commenting on, and our conclusion was that we could 
not. The difficulty of using sample and model-based estimates 
to provide better figures for small areas does not seem 
feasible to the professional staff at the Census Bureau at this 
stage. So we have not requested money and are not intending to 
try that kind of process in 2010.
    Ms. Cooper. If I might just, if I may, add to that point. 
The director has given very good and useful answers to the 
question, but I arrived in May 2001, and I remember vividly the 
hard work done by the census professionals for many, many 
months trying to see if they could make the process that they 
had developed in advance work. And they simply could not. It is 
not a viable option, and that is the reason that we are not 
asking for money and do not plan to adjust in 2010. And from 
all that I hear from the statistical community, they support 
that decision.
    Mr. Turner. Well, I think it is important to acknowledge 
that your answers, if I am correct, are that the decision is 
based on career professionals and scientific processes in 
rejecting looking at sampling as a process for adjusting your 
numbers. Is that correct?
    Mr. Kincannon. That is absolutely correct. I took my 
office, director, on March 20, 2002, so earlier decisions in 
work had gone on ahead of that time. But from that point on, I 
was involved in many of the professional staff meetings where 
the results were drawn together and judgments were made about 
its quality. I asked questions, but that was a process run by 
and settled by the professional statisticians, the dozen or 15 
who had worked consistently on this for years. So yes, that is 
a professional staff decision.
    Ms. Cooper. Absolutely.
    Mr. Turner. My next question, Ms. Cooper, I am going to 
start with you because it directly impacts the director, 
Kincannon, and I also appreciate his thoughts on this. It 
relates to the census director's position and whether or not 
the position should be appointed for a set term.
    Ms. Cooper, do you have thoughts as to benefits that we 
might see from that.
    Ms. Cooper. I think that is an idea that has come around 
before, and I think it is a worthy idea, something that I am 
sure people have thought about a number of times. BLS clearly 
has a fixed term, and I see some benefit to having some 
continuity. So I think it is something that is worthy of debate 
and consideration.
    Mr. Turner. Thank you.
    Director Kincannon.
    Mr. Kincannon. Mr. Chairman, I was deputy director at the 
time of the end of the Reagan administration and the taking of 
office of President Bush's father's administration, and it took 
a long time to get a new census director identified, nominated 
and confirmed. So the burden in the last year before the census 
of 1990 fell entirely on me, and I can tell you there are two 
jobs there. So continuity and having someone in place to do 
that work is an important consideration.
    On the other hand, having a head of the Census Bureau with 
such a scientific task but nonetheless intentionally and 
Constitutionally a political purpose means that the President 
ought to have someone in that office who is trusted by the 
administration. So I think the Congress would have to weigh 
those issues, because I think that they pull in different 
directions, and determine which is the best way to have it. And 
be sure to put on the shoes of the other side when you take 
that decision.
    Mr. Turner. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you.
    I, first of all, want to welcome both of our participants 
and thank you for your testimony.
    Undersecretary Cooper, one of the most innovative 
statistical programs in the Federal Government in the last 20 
years is the Longitudinal Household Employment Data [LEHD] 
program. And the Census Bureau should be very proud in the role 
it has played in assisting Dr. Julia Lane and her colleagues in 
making this project so successful. One of the things that makes 
this project so unique is that it takes existing data from the 
States and the Federal Government and creates new information 
that is more valuable than either data set alone. So far, 
Congress has not provided the funds to make this program fully 
operational. What is the administration doing to assure that 
Congress gives due consideration to the request for this 
program in the 2006 budget because it is, by all estimates, an 
extremely valuable program?
    Ms. Cooper. Thank you very much, Mrs. Maloney, for that 
question, and I agree completely with your assessment, that it 
is one of the most innovative programs in a long time. I am 
very hopeful that, in fact, in the 2006 budget that the 
Congress will approve some funding for the LEHD.
    I think the main----
    Mrs. Maloney. Well, has Congress sent over a request asking 
for it?
    Ms. Cooper. Well, it is in the budget. It is in the budget 
at a certain level, and census has been working, over the last 
couple of years, to try to develop this program so that it can 
indeed work and explain it to a number of people, both up 
through the Commerce Department. And then I am sure that there 
are some special activities to explain it on the part of direct 
census professionals. But this is one of the programs and ideas 
that I certainly talk about on a regular basis when I am out in 
the country because I think it can be very helpful for us 
longer term.
    Mrs. Maloney. OK. Well, I hope you will keep your eye on 
it.
    Director Kincannon, as I mentioned in my statement, I would 
like the Census Bureau to provide the committee with detailed 
plans on what it will do in 2006 to help local governments 
prepare for the Address Correction Program. When can we expect 
to see those plans? Will they be here at the end of April? At 
the end of May? When can we see those plans?
    Mr. Kincannon. We produced a preliminary plan for how we 
were going to use LUCA in the 2010 census 2 years ago, I 
believe, and we can certainly provide that to the subcommittee 
and will do so.
    Our finding was that we did not believe it will be cost-
effective to do this before the national update of all 
addresses in 2009. So we plan to carry out a pilot LUCA program 
in the dress rehearsal in 2008, but LUCA itself will not be 
implemented until after we have the updated addresses before 
the census.
    Mrs. Maloney. So we will have a dress rehearsal in 2008, 
but continuing on the line of the address list program, can you 
tell me what will be done to test the local update in the 2006 
census test? Are you going to do anything in the 2006 census 
test to test the addresses?
    Mr. Kincannon. No. We won't be testing that in 2006. These 
are tests of partial areas, and we don't think that is 
particularly productive. And we can report on our plans in more 
detail if you would like.
    Mrs. Maloney. Thank you, we would appreciate it.
    The Gooden Center at the New York University has been 
conducting research on the inequity caused by counting 
prisoners at the prisons rather than at the residence. A lot of 
people argue you should count where they are going to live 
after being released. Is the Census Bureau considering any 
changes in how it counts prisoners in the 2010 census?
    Mr. Kincannon. No, Mrs. Maloney, we are not planning any 
changes. Since 1790, we have counted people according to their 
usual place of residence. What that has meant for a number of 
decades is a simple concept of where people sleep and live most 
of the time. Prisoners sleep and live mostly in prisons, and 
that's where we count them. This policy of usual residences was 
upheld----
    Mrs. Maloney. Is that how they are going to be treated in 
the ACS also, prisoners----
    Mr. Kincannon. Yes, that's correct. The U.S. District Court 
for the District of Columbia upheld this specific policy and 
specifically with regard to prisoners in 1992.
    Mr. Turner. Director, will you explain to the committee how 
you will be measuring errors in the 2010 census? I am 
especially interested in how you will fulfill your promise to 
measure gross errors, and I would like to know when and how 
this methodology will be submitted for external review.
    Mr. Kincannon. We have commissioned a panel of the National 
Academy of Sciences to help us study the best ways to try to 
measure error, gross and net, and we expect a report I believe 
in the summer of 2006.
    Mrs. Maloney. My time is up. Thank you.
    Mr. Turner. Thank you, Mrs. Maloney.
    Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Director Kincannon, my observations have been, there are 
two types of people, those who want to be found and those who 
don't, and there seems to be a larger number in that latter 
category than any of us would like.
    In your testimony, you've talked a little of coverage, and 
it is encouraging to note that you are going to be conducting 
surveying in English and Spanish to help with coverage. What 
are you doing beyond bilingual surveys, to improve coverage for 
the 2010 census?
    Mr. Kincannon. Well, there are a number of very important 
steps being taken to do that. First of all, although we plan to 
mail bilingual questionnaires in English and Spanish to 
selected areas--and we will do our final testing of that over 
the next 2 years--we do have both translated questionnaires in 
five or six other languages; we did in 2000, and we will have a 
similar program in 2010.
    We are also going to test mailing language guides in a 
number of languages, along with the English language 
questionnaire, in other areas where there are many sets of 
people who speak other languages, perhaps, in their home. There 
are many neighborhoods in our cities and in rural areas also 
where that would be helpful.
    We are looking very closely at what we call residence 
rules, where people are intending to be counted, to try to 
resolve in the respondents' minds how they should report if 
they have seasonal residences and so forth. That is a source of 
duplication in some instances, and certainly of confusion.
    Mr. Dent. Just a followup to that. How do you account for 
duplication? I'm in Pennsylvania, I have a lot of folks who 
spend a good part of the year down south in Florida or South 
Carolina. How do you account for people like that, just 
subtract for duplicates in general, beyond the seasonal 
residents in a given State?
    Mr. Kincannon. Well, in theory, we rely on trying to convey 
an understanding that respondents should report themselves 
where they usually live most of the time. Some people may 
divide their time exactly half and half, but that's rare, I 
think. Our success in communicating that concept to respondents 
is not always perfect, and it is confusing to them. So we are 
doing cognitive studies of the way we explain that intention, 
and we are conducting detailed tests in field circumstances to 
see if we can improve on the model in the way we communicate 
that.
    We also examine duplication in the course of evaluating the 
coverage of the census. We did that in 2000, and we will do 
that in 2010. But after the fact, it is sometimes difficult to 
resolve issues of duplication. You can tell for sure there is a 
duplicate, but you cannot tell for sure which case was right. 
And a year or more after the census date, it is very difficult 
to followup constructively and ask people to say, where were 
you on this date?
    Mr. Dent. And how do you account for people who may not be 
citizens of the United States, who may be here illegally or 
might be here on a visa legally? How do you account for those 
folks in the census?
    Mr. Kincannon. We don't deal with the question of legality 
or authorized presence in the United States. We count people 
who are resident here most of the time.
    Mr. Dent. Thank you.
    Mr. Turner. We will go to a second round of questions just 
to see if anybody has anything now they want to conclude with. 
And Ms. Cooper, I wanted to ask you a question about ACS.
    Today, we are talking mostly about how the census is going 
to be done and how it will be improved and what it is for a 
tool. And I would like to ask a couple of questions about its 
use and the importance of this data being correct.
    Really, we have two groups that benefit from the census in 
their planning; we look at business in our economy, local 
governments, and issues of infrastructure. And I wondered if 
you could talk about those two as stakeholders on the local 
level with our local governments, businesses, and our community 
plan.
    Ms. Cooper. Absolutely. Thank you for that question.
    I spent virtually all of my career before coming to 
government in 2001 in the private sector, and I can assure you 
that businesses certainly--which is where I spent my time--use 
this data for very important decisions. They use it to 
determine where to locate, where their best market would be, 
where to hire employees, and what sorts of products to produce. 
So it is very important that they have this data and have it on 
a timely basis. We have remembered certainly having to look 
back and using very old data in the past if we get to the 
middle part of the decade, and that is one of the most 
important advantages of ACS. So I am very hopeful that this 
will be helpful to companies as we go forward.
    And I think it is also true, though I have less firsthand 
knowledge than you of State and local governments and how they 
can use this data for planning. And here, again, the importance 
of its coming every year rather than once a decade is crucial. 
There are a couple of examples that I've heard about that I 
would like to share with you.
    Fulton County, PA, which is a sparsely populated rural 
area--as you know, Mr. Dent--has used ACS data to develop 
employment and a training services system, a rural 
transportation system, and a help line for facilities to 
address health care and child care needs.
    Another example is Springfield, MA. Community leaders and 
public safety officials have used it to develop youth violence 
prevention programs for teens.
    Final example, Bronx County, NY. ACS data has been used to 
identify and develop intervention strategies for juvenile 
diabetes in special populations.
    I think these are just three examples out of many, that are 
out there, and once State governments and local governments get 
used to this data, know about its availability, they will use 
it ever more, community-based organizations, transportation 
planners and so on. And I think that's the reason why we have 
had so much support, not only from the business community, the 
National Chamber of Commerce, the National Association of Home 
Builders, Target Federated Department stores, but also from a 
number of other government and local government organizations, 
including the National League of Cities, the U.S. Conference of 
Mayors, National Conference of State Legislators. There are a 
number of others.
    So I see, going forward, this data being extremely useful 
for all stakeholders, many American businesses and State and 
local government, to better plan for their futures and make 
this economy even stronger than it is.
    Mr. Turner. Thank you.
    Director Kincannon, I have two questions for you. You spoke 
about the 1990 census, and I think one of the things that 
people identify in the 1990 census, when they speak of it 
critically, is the issue of high turnover in staff. And 
certainly your census success is impacted by the enumerators 
who are working on the project. What work are you doing as you 
are moving forward to look at the 2010? Because people 
generally believe in 2000 there was a much more stable team 
that actually performed the census. What are your planning 
processes, and what are you looking toward 2010 for stability 
in staff?
    Mr. Kincannon. Well, we certainly hope to continue a very 
important thing that was done in 2000. The Congress provided 
and approved differential pay rates that were meaningful in 
different areas of the country so that we could compete. We 
were even successful in recruiting very good staff in New York 
City because we had competitive wages to pay. That's a big 
factor. It's a simple principle, but it's very important, and 
we hope to continue that.
    I would not at all underestimate the significance of having 
a short-form-only census. That means our job of training is far 
simpler, and the rigors of doing the job are far less difficult 
than trying to followup on the long form. And I think those 
factors alone will reduce turnover in 2010.
    Mr. Turner. Director, Mrs. Maloney spoke of the 2010 
Advisory Group as opposed to the Decennial Advisory Group. And 
I am not really familiar with the differences there, so perhaps 
you could give us some comments on why you've made this move, 
the differences and what you hope to accomplish.
    Mr. Kincannon. Yes, Mr. Chairman, I would be happy to do 
that.
    The Decennial Census Advisory Committee was chartered quite 
a number of years ago, before the 2000 census. It originally 
had 25 members; membership grew over a period of time to about 
40, I think. It was a large group, where it was sometimes 
difficult to have an effective collective discussion. A number 
of members--and the members of that committee are 
organizations, not individuals. The organization then sends a 
representative. Some organizations were not faithful in their 
attendance sometimes not coming at all and sometimes not 
sending a consistent person, which is, I'm afraid, a very 
important part of the ingredient.
    After the 2000 census, it was decided to continue that 
committee because we had something quite marvel going on in the 
preparation for the ACS. And I think that was a correct 
decision at the time. My desire, now, was to have a streamlined 
committee with 20 members of people who are going to attend and 
participate constructively, perhaps to get some different 
groups involved in the process and also to make clear that this 
was to focus on the 2010 census. I think it is useful to draw a 
line around a particular census and focus attention on that and 
have some concentrated attention in that way.
    Mr. Turner. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you. Thank you, Chairman Turner.
    You raised the issue of a term appointment for the Census 
Bureau Director, and I have championed this position since 
before the 2000 census. The director made the point that there 
is an advantage to having a director that is trusted by the 
administration--whomever the administration is--and that is 
just the point of my bill. The Census Bureau director should be 
first committed to the professional responsibilities of the 
office and, second, to the political agenda of an 
administration. If by some decision the majority decides to 
pass my bill, I really want to underscore that it must be done 
in a way that there is no partisan advantage attached, and I 
just wanted to clarify my position on that.
    I would like to ask the director, what information would be 
available to the public about error in the census measured for 
small geographic areas like census tracks or counties? Will you 
make that information available in 2006 and 2008?
    Mr. Kincannon. Well, Congresswoman, we expect that we will 
have a detailed plan developed after the report from the 
National Academy of Sciences in the summer of 2006. I don't 
know whether we will produce error rates by tract or by county. 
It may depend more on the population size of an area than on a 
particular boundary. But it is premature for us to say what we 
can do until we have received this recommendation. We are 
committed and attempt to carry out a program of evaluation of 
coverage at a level where it can be useful to us and to the 
public.
    Mrs. Maloney. The Census Bureau director has repeatedly 
said that it will measure and report errors of omission and of 
duplication in the 2010 census. However, when the Census Bureau 
discusses how it will evaluate the 2010 census, it says it will 
be evaluated based on net error. And as you know, net error 
allows people of substantial means who are counted twice--
because of the reasons cited earlier, living in two places--to 
substitute for the poor and disenfranchised who are missed in 
the census. And why are you willing to count those errors but 
not be evaluated on the basis of your ability to avoid them? In 
other words, I think you should let us see the information on 
double counts and omissions so that we can evaluate better and 
maybe come up with better solutions on how to get better counts 
as opposed to a net count.
    Mr. Kincannon. I believe that we have committed a good 
effort to measure gross errors as well as net errors in 2010. 
In 2000, the survey, the program, both of sampling and 
modeling, was designed to measure net error. That is what we 
had always focused on. There was a view that there had probably 
been duplicates in the past, but we did not have a measure of 
the degree of duplication as robust as we had in 2000. And so 
we see that the efforts, the well intentioned certainly, 
efforts to improve the coverage of the census may have resulted 
in duplications. It is also a product of different living 
patterns and that sort of thing.
    But our commitment is that we intend to have an evaluation 
process that focuses on both net and gross error.
    Mrs. Maloney. Good. And that will be made available to the 
committee to process?
    Mr. Kincannon. Yes, when we have that, yes.
    Mrs. Maloney. That's great. And what will be done in the 
2006 census test to determine the errors of omission and 
duplication, and how will those errors be reported to the 
public? Will you just issue a report to Congress? Are you going 
to issue a public report? How are you going to report this?
    Mr. Kincannon. It will be a part of our evaluation program. 
It would not be necessarily the model that we would follow in 
2010 because we would not have the benefit of the academy's 
report and our own final decisions on that, but there will be 
evaluations of aspect of coverage, and those will be reported 
publicly.
    Mrs. Maloney. Well, my time is up, and I thank the 
chairman. Thank you.
    Mr. Turner. Mr. Dent, any further questions?
    Mr. Dent. Just one last question.
    Mr. Kincannon, what is the status of the plans to use 
handheld computers to conduct your field surveys for field 
interviewing work in the 2010 census?
    Mr. Kincannon. Mr. Dent, we tested this in the test 
censuses in Queens and southwest Georgia in 2004. This was the 
model that was used, it would not be the model that's used 
ultimately. But we did learn that we could hire and train 
enumerators to use this device in finding their assignments, in 
taking down answers and in relaying those electronically for 
data processing. So that was a very important step forward, and 
we want to make sure of the degree to which we can automate 
functions. Even automating only those functions would be an 
improvement in efficiency, cost savings and, in every way, a 
step forward. And to the extent we can carry it forward to 
other processes, we want to do that as well. We will test that 
again in 2006, and then we will settle on what we are going to 
do and rehearse that in 2008.
    Mr. Dent. Thank you.
    Mr. Turner. I want to thank both of you for your testimony 
and your comments today and would ask if there is anything else 
that you would like to add to your comments or in response to 
your comments today?
    Ms. Cooper. No, thank you.
    Mr. Kincannon. No, thank you.
    Mr. Turner. In that case, we will thank you both.
    And we will turn to our second panel, which will include 
Ms. Joan Naymark, director of research and planning, Target 
Corp., testifying on behalf of the U.S. Chamber of Commerce; 
Dr. Andrew Reamer, deputy director, urban markets initiative, 
Brookings Institution; Ms. Jacqueline Byers, director of 
research, National Association of Counties.
    As you are taking your seats, I will acknowledge that, as 
with our first panel, that you each have provided written 
testimony that will be included in the record of this hearing. 
Witnesses will notice that there are lights on the table that 
are timers. The green light indicates that you should begin 
your prepared remarks, and the red light indicates that your 
time has expired. It is the policy of this committee, as I 
stated previously, for our witnesses to be sworn in before they 
testify. And if you are all situated, if you would please rise 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Please let the record show that all witnesses 
have responded in the affirmative.
    And we will begin with Ms. Naymark.

 STATEMENTS OF JOAN NAYMARK, DIRECTOR, RESEARCH AND PLANNING, 
   TARGET CORP., TESTIFYING ON BEHALF OF THE U.S. CHAMBER OF 
    COMMERCE; ANDREW REAMER, DEPUTY DIRECTOR, URBAN MARKETS 
   INITIATIVE, BROOKINGS INSTITUTION; AND JACQUELINE BYERS, 
     DIRECTOR OF RESEARCH, NATIONAL ASSOCIATION OF COUNTIES

                   STATEMENT OF JOAN NAYMARK

    Ms. Naymark. Chairman Turner, Mrs. Maloney, Mr. Dent, I am 
happy to be here today. I am Joan Gentili Naymark, director of 
research and planning for Target Corp., the Nation's second 
largest general merchandise retailer.
    On behalf of Target, I represent the U.S. Chamber of 
Commerce, the world's largest business federation. I represent 
the Chamber on the Decennial Census Advisory Committee to the 
Secretary of Commerce. I am motivated by a desire to support 
the most accurate census ever in 2010. I believe that 
partnerships with the business community will help support that 
goal.
    I will address three points: first, why business cares; 
second, to reiterate our continued support; and, third, to 
stress that an accurate master address list is critical for the 
2010 short-form-only census, as are strong partnerships and the 
American Community Survey.
    First, why does business care? The business community and 
all other data users across the Nation need an accurate 2010 
census, an annual American Community Survey [ACS], long-form 
data for planning, operational, and financial purposes that 
together strengthen the American economy and benefit the Nation 
as a whole. Data users need high-quality data comparable over 
time for small areas below the county and city level.
    Let me share some examples from my company.
    Target Corp. uses census data to determine capital spending 
on new stores and remodeling, make decisions about merchandise, 
marketing, and advertising, plan our work force, and support 
our community giving program. Our new store-site decisions are 
made for over 20 years. Each store costs nearly 20 million to 
construct, and sometimes much more than that, and creates 200 
to 500 jobs. A wrong decision is not easily corrected. Building 
in the right location brings jobs, goods and services, and 
economic stability to local communities. Smaller stores, 
restaurants, and services follow us and depend on our research 
to be right.
    Business must understand local communities. In Queens and 
urban Chicago, data on housing stock and living patterns inform 
our store-planning decisions such as the size and number of 
fitting rooms and parking spaces and the demand for megapacks 
of paper towels, bicycles, or patio furniture. Accurate race 
and ethnicity data identify opportunities for multicultural and 
bilingual signing. These decisions affect not only our bottom 
line, but are the economic anchor of most communities. Wrong 
decisions based on faulty data could lead to bad financial 
decisions or perceived lack of respect for the local area. 
Business failures hurt entire communities.
    Socioeconomic data previously collected on the census long 
form now depend on the ACS. These data are critical to estimate 
market potential and consumer demand. We have high expectations 
for greater insight and efficiency from ACS data, but without 
an accurate decennial foundation, the benchmarks, estimates and 
data quality are at risk.
    Second, I want to assure you that the business community 
will continue to support enumeration activities. Target ran a 
census notice in our weekly newspaper circular, which you can 
take a look at after the hearing. We provided assistance, 
guides, and language in hard-to-enumerate areas. We set up 
kiosks in all of our stores across the country. And we printed 
census bags promoting the census message. We also provided 
information to our thousands of employees and nearly 100,000 
school partners.
    Such partnerships were key success factors for the 2000 
census, helping achieve high mailback response rates, and 
breaking down barriers with the difficult-to-enumerate 
populations.
    I urge your enthusiastic support of a 2010 partnership 
program that equals or exceeds the scope of the 2000 program. 
It must be broad-based, with meaningful two-way communication, 
and start early to be effective, especially with growing 
privacy concerns of Americans.
    Last, the master address file is among the most important 
requirement for an accurate census because the enumeration is 
based on a housing unit model identifying where people live and 
then counting who lives there. Housing duplicates and 
inaccurate digit maps appear to be problematic in 2000. And 
failure to accurately include multiple housing units, 
especially in cities, contributes to the undercount.
    Economic and demographic trends and high housing 
transportation costs are leaning to interesting applications of 
housing; higher-density units are occurring at the edges and in 
urban areas; demographic surges are occurring with the baby 
boom and echo boom and new immigrants, and these will pose 
large issues for the 2010 count.
    In closing, we urge Congress to support a successful 2010 
census by committing the necessary support and funding for a 
comprehensive address file. Strong partnerships and a long-term 
commitment to the ACS will benefit our economic infrastructure 
and support efforts in both the public and private sectors to 
improve the quality of life for all Americans. Thank you.
    Mr. Turner. Thank you.
    [The prepared statement of Ms. Naymark follows:]

    [GRAPHIC] [TIFF OMITTED] T3945.017
    
    [GRAPHIC] [TIFF OMITTED] T3945.018
    
    [GRAPHIC] [TIFF OMITTED] T3945.019
    
    [GRAPHIC] [TIFF OMITTED] T3945.020
    
    [GRAPHIC] [TIFF OMITTED] T3945.021
    
    [GRAPHIC] [TIFF OMITTED] T3945.022
    
    [GRAPHIC] [TIFF OMITTED] T3945.023
    
    [GRAPHIC] [TIFF OMITTED] T3945.024
    
    [GRAPHIC] [TIFF OMITTED] T3945.025
    
    [GRAPHIC] [TIFF OMITTED] T3945.026
    
    [GRAPHIC] [TIFF OMITTED] T3945.027
    
    [GRAPHIC] [TIFF OMITTED] T3945.028
    
    Mr. Turner. Dr. Reamer.

                   STATEMENT OF ANDREW REAMER

    Mr. Reamer. Good morning, Mr. Chairman, Mr. Dent, Mrs. 
Maloney. I'm Andrew Reamer, deputy director of the urban 
markets initiative of the Brookings Institution, and I 
appreciate the opportunity to appear before you on the 
components of a successful decennial census, and will focus my 
remarks on the role of the American Community Survey.
    By way of background, UMI's mission is to stimulate greater 
public and private investment in urban communities through 
improving the availability, the accessibility, and the accuracy 
of data on these communities. Better data will lead to better 
understanding of investment opportunities and more effective 
investment decisions.
    From UMI's perspective, we believe that the ACS is a highly 
essential and necessary data set. More than any other data set 
collected by the Federal Government, the ACS will enable 
investors to obtain a complete current understanding of 
detailed demographic and socioeconomic characteristics of the 
Nation's metropolitan areas, central cities, and, as of 2010, 
its neighborhoods.
    With the availability of the ACS, we expect to see 
businesses and entrepreneurs use data to identify untapped 
market opportunities and better understand the size and the 
nature of the labor force available to staff those new and 
expanded businesses. We expect to see local governments, 
metropolitan planning councils, and community organizations use 
ACS data to determine the need for and impacts of programs in 
transportation, health, education, work force development, 
community, and economic development, and in many other realms. 
We expect to see a multitude of Federal agencies use the ACS to 
determine the geographic allocation of billions of dollars' of 
Federal programs and services in similar realms.
    Historically, public and private investors in urban areas 
have relied on detailed data derived from the decennial long 
form. For instance, as an economic development consultant in 
1993, I used long-form data to identify the need for a Hispanic 
supermarket in a commercial district in Boston. My client and 
the city of Boston read the feasibility study, rounded up 
partners and capital, quit his job, and started a highly 
successful new venture. Two months ago, America's Food Basket 
opened up its third store, a 21,000 square foot facility, and 
is planning a fourth. Such is the long-term impact of good 
data.
    However, I picked a good year to do the feasibility study, 
just a few months after the census data were released. In most 
years, the available long-form data are out of date. In fact, 
the once-a-decade release of long-form data has meant the 
Nation's investors almost always suffer from a lack of reliable 
detailed neighborhood data on which to base decisions and 
measure results. Consequently, hundreds of billions of dollars 
of public and private investment decisions are made in a state 
of statistical uncertainty.
    The ACS addresses these concerns head on. By being 
collected continuously and published annually and quickly, the 
ACS will provide urban investors with far more current data on 
which to base decisions. For regional analysts, the preliminary 
version of the ACS has well proved its worth. In the last 4 
years I have created a set of annual indicators on the 
characteristics of working poor families by State, and this 
would not have been possible without the ACS.
    So, in summary, UMI believes a full-scale implementation of 
the ACS will provide economic benefits to the Nation many times 
the cost to the Federal Government. At the same time, we 
recognize that there are a number of challenges that need to be 
addressed. I lay out these challenges in my written testimony, 
and I will summarize them in the form of three recommendations.
    The first, echoing Mrs. Maloney, is that the ACS budget 
program must be allocated budgets that are stable and 
sufficient from year to year.
    The second recommendation is that the Census Bureau should 
manage an ongoing rigorous effort to evaluate the reliability 
of the ACS and implement methodological changes as necessary. I 
want to particularly emphasize a look at the reliability of the 
intercensal population counts on which the numbers and the ACS 
rely. Those are the control figures that the ACS uses.
    The third recommendation is that the Census Bureau build a 
strong and ongoing partnership with States and local 
governments in three dimensions. The first is, as others have 
said, updating the master address file not just once a decade 
but, ideally, on an ongoing basis. The second dimension would 
be encouraging working with States and local governments, as 
census did in 2000, to promote public participation in the ACS. 
And the third is to provide guidance to State and local 
analysts regarding effective uses of the ACS. The ACL will be 
coming out in forms that are a little unfamiliar to people who 
have used long-form data, and so the census guidance on this 
will be helpful to analysts in State and local government, as 
well as in the private sector.
    On behalf of UMI and the Brookings Institution, I want to 
thank you for the opportunity to provide observations on the 
value and the challenges facing the ACS, and I am pleased to 
answer any questions you might have.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Reamer follows:]

    [GRAPHIC] [TIFF OMITTED] T3945.029
    
    [GRAPHIC] [TIFF OMITTED] T3945.030
    
    [GRAPHIC] [TIFF OMITTED] T3945.031
    
    [GRAPHIC] [TIFF OMITTED] T3945.032
    
    [GRAPHIC] [TIFF OMITTED] T3945.033
    
    [GRAPHIC] [TIFF OMITTED] T3945.034
    
    Mr. Turner. Ms. Byers.

                 STATEMENT OF JACQUELINE BYERS

    Ms. Byers. Chairman Turner, Mrs. Maloney, and Mr. Dent, my 
name is Jacqueline Byers, and I am the director of research at 
the National Association of Counties. Thank you for the 
invitation to testify on the importance of the census to county 
governments.
    As old line Census Bureau folks say, the 2010 census will 
be my fourth census, and I am pleased to share with you what I 
have learned about its use by county officials throughout the 
Nation.
    Every county in the country uses census data every day. It 
is the only controlled and reliable population baseline and 
demographic data available on a national basis. This data is 
used to plan classrooms, curriculum, and the number of 
teachers. It is used to attract businesses and economic 
development, to determine how long it takes for residents to 
get to their jobs, where they are going to work, and how much 
money they make. All of this information is necessary for a 
county to plan effectively for the future.
    In addition, census data is used to allocate the Federal 
funds that most local governments receive. Since county 
governments are the level of government closest to the people 
and are charged with direct-service delivery in many areas, it 
is vitally important that the data used to allocate Federal 
funds that help fund this service delivery system is current 
and correct.
    There are three points I would like to make today. The 
first is NACo's continuing support of the American Community 
Survey. We would like to express our thanks to Congress for 
seeing that this vital program was properly funded in the 
current budget. The American Community Survey will provide the 
most current demographic data possible to all counties. The 
biggest task involved in the complete implementation of ACS is 
education and outreach. This means educating the public so that 
they will respond to this new kind of survey and educating 
local officials so that they know of its availability and 
value.
    The second point is the importance of the master address 
file and TIGER programs. Capturing the new address and map 
information is a continuous process, not one that can be 
completed in the 18 months prior to census day. With the 
expansion of the ACS, the continuing update and resulting 
improved accuracy is more important than ever.
    The third point I would like to speak to is the 2010 short-
form census. NACo has supported the ACS because it provides 
much more current demographic data about counties throughout 
the decade, and because it created the possibility of an all 
short-form census. However, it is important to realize that 
outreach and education about why you should respond to the 
census is still just as vital as it was for the 2000 census 
when historic outreach efforts were conducted. The partnership 
activities and the mobilization of stakeholder organizations 
that was accomplished for 2000 need to be replicated for 2010, 
because the very people who are often missed in the census are 
the most likely to require additional governmental services. 
Funding and support for the partnership activities including 
involvement of stakeholder groups, schools, local, State, and 
national level organizations, continue to be a necessary part 
of preparing for the 2010 census.
    We strongly urge that the Census Bureau receives the 
appropriate allocations so they can do what they do best.
    This concludes my testimony. I look forward to any 
questions that you may have.
    Mr. Turner. Thank you.
    [The prepared statement of Ms. Byers follows:]
    [GRAPHIC] [TIFF OMITTED] T3945.035
    
    [GRAPHIC] [TIFF OMITTED] T3945.036
    
    [GRAPHIC] [TIFF OMITTED] T3945.037
    
    [GRAPHIC] [TIFF OMITTED] T3945.038
    
    [GRAPHIC] [TIFF OMITTED] T3945.039
    
    Mr. Turner. I thank each of you for participating today and 
for the information that you bring to us on the important work 
of the census.
    I have a two-part question for you that I am going to 
direct to Ms. Byers and Ms. Naymark. And then, Dr. Reamer, I 
would like your comments when they are finished.
    The two parts of the questions are, if you could talk about 
information from the ACS that you see that is most helpful from 
your perspectives, both business and then government, and if 
you have thoughts of what we are missing? What would be helpful 
that we are not currently addressing in information that we are 
looking toward?
    And then, Dr. Reamer, I would appreciate your thoughts 
globally on the matter.
    Ms. Naymark.
    Ms. Naymark. What information is the most important, and 
what are we missing on the American Communities Survey?
    Mr. Turner. Yes, please.
    Ms. Naymark. The private sector makes extensive use of the 
demographic and economic data that's available for planning 
purposes. We do that along with all the public and nonprofit 
sectors as well.
    The most important information from the American 
Communities Survey is not necessarily a particular item or any 
item that's missing, but at the geographic level at which it's 
available. We are still in that data void until 2010 when we 
will be able to get the census track level information. And we 
are very eagerly looking forward to the point after 2010 when 
we will start to receive the information on an annual basis. 
Population estimates, short-form characteristics, age, sex, 
race, relationship to household head, housing stock are 
critically important for us. Long-form data items are 
critically important for us, but I would say that they rank 
third in priority to the annual estimates of population and 
short-form information. The market information on income, 
education, transportation, length of residence are taken in 
combination in a wholistic approach, depending on the 
application that we are interested in, but it's the getting of 
the information at a small level that we can aggregate to trade 
areas or tracks, market areas that are critically important for 
us. And we are grateful to have all of the information that is 
available in there.
    I would not suggest to add anything at this point. I am 
just delighted that it is all on there and will be available 
annually. Thank you.
    Mr. Turner. Ms. Byers.
    Ms. Byers. I think the information that the counties 
receive about who we are and what we are becoming--and that is 
our basic demographic information about age, race, education, 
economics--is very helpful, because we have seen a huge influx 
of immigrants. We have seen a lot of in-migration and out-
migration of people from various communities for various 
reasons, some for lack of economic development, some pursuing 
economic development and an opportunity for employment.
    If there's anything that we would ask for, it would be 
additional information about housing. There is quite a bit of 
information about housing, but housing is starting to become a 
very big issue, especially affordable housing, for counties 
across the Nation. So anything that could help us with that and 
help us fulfill our roles in providing housing for our 
residents would be very helpful to us.
    Mr. Turner. Dr. Reamer.
    Mr. Reamer. I think the most important figure is actually 
the total number of people. And beyond that, the combination of 
demographic characteristics of age, sex, race, with 
socioeconomic characteristics, income, educational attainment, 
I think, are the most used, certainly in investment decisions. 
Planners use the data about how people get to work, which is 
very important as well. And in terms of data that might be 
additionally useful, one source would be the ACS, which is now 
going to be carried out in parallel with the current population 
survey, which is the survey that the Bureau of Labor Statistics 
uses to measure unemployment every month. So I would be 
interested in knowing more about how the two surveys will be 
run in parallel and could support each other. I don't know much 
about that, so I am just posing that as information I would 
like to know about. And that might involve some adjustment in 
the ACS questionnaire. I don't know.
    Mr. Turner. When the first panel spoke of the partnership 
program for 2010--and you all have suggested that the 
partnership program was a key success factor in the 2000 
census--in your opinion, how is the partnership program for 
2010 developing, and how might each of your organizations 
participate or assist in that process?
    Ms. Naymark.
    Ms. Naymark. The partnership program in 2000 was a key 
success factor. I joined the Decennial Advisory Committee in 
the mid-nineties, and it was just getting kicked off, along 
with the other components of the 2000 plan. Its goals were 
clearly stated and differentiated from the other parts of the 
programs, such as paid advertising, and yet they all came 
together to support the core message. It was broad-based and 
inclusive. It reached out and welcomed all levels of 
government, for-profit and not-for-profit organizations. I 
think those were all key components of its success.
    It's 2005, and the ACS is just underway, and we are 
delighted about that. But I think adding the ACS will add 
another level of complexity to the partnership program. It is a 
little bit early to start making actual plans. I am not aware 
at this point of what the partnership program will look like in 
my role on the advisory committee, in the old advisory 
committee. I am hoping to rejoin that committee. But I think 
that it will become a high priority over the next couple of 
years to develop that plan, the integration, with outreach to 
the local level for American Community Survey once the program 
is in that particular community, and I think partnerships will 
play an even more critical role to break down the barriers, 
bring out the count, and have local communities embrace what's 
happening.
    In the context of working with the Bureau, I am wondering 
if the current restructuring of the Decennial Advisory 
Committee that's currently underway may alter some of the 
longstanding relationships with stakeholders. I will be 
interested to see how the outreach and continuity program with 
those prior members will continue. I think they were important 
stakeholders sitting at the table, understanding what was 
happening with the Bureau's plans, and it will be important to 
continue to have them be members for partners in 2010 as well.
    Mr. Reamer. Brookings as an institution, and myself 
personally, were not involved in the Census 2000 Partnership 
Program, and we are not a membership organization, so we 
wouldn't be involved in the partnership program for the ACS in 
2010. So I really can't comment.
    Mr. Turner. Ms. Byers.
    Ms. Byers. I think one of the biggest things that 
contributed to the success of the 2000 census was the outreach 
and the partnership program that was conducted. One of the 
things that we recognize--and I think many other people in this 
room recognize--that many of our newer residents in this 
country find it completely foreign to take a piece of paper and 
fill it out with a lot of information about themselves and then 
turn it in to the government. That is not the reality that they 
lived in in their former countries. So to be able to penetrate 
into these communities and get the gatekeepers to these 
communities, you have to involve the stakeholder groups, you 
have to involve the community-based organizations, you have to 
involve maybe the priest that is speaking in the church or the 
school teachers that are teaching in the schools. All of that 
partnership and outreach was done and achieved very successful 
results in 2000.
    I have, as Ms. Naymark said, not heard anything at all 
about the partnership activities that are going to be conducted 
in 2010. I had the privilege of being invited to do a keynote 
speech at several kickoffs for big local government activities 
that were done in connection with the census prior to the 2000 
census. And I was very pleased to see the mobilization, the 
local contribution of funds, the local efforts that were going 
on. All of this was led by activities that were initiated by 
the Census Bureau and their partnership coordinators, and I 
would think that kind of effort would necessarily have to be 
replicated for 2010.
    Mr. Turner. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    I really want to thank all of you for your testimony and 
for your support for a successful census. But I would like to 
start with a question that I would like each of you to answer. 
As you know, the cost of the 2010 census is extremely high; $72 
per household compared to $13 per household in 1970. And those 
are in real dollars. So I would like each of you to tell me how 
important each of the following measures are in evaluating the 
census. And I would like to start probably with Mrs. Naymark, 
since she started first, and just go down the line.
    The first is the small area accuracy. How important do you 
see that as measuring and evaluating the census, the small area 
accuracy?
    Ms. Naymark. I think small area accuracy is critically 
important. All of the larger numbers buildup from the smaller 
numbers. It must be consistent, unbiased information that can 
be trusted; can't have overestimates in some geographies and 
underestimates in another. And I think to not provide adequate 
funding or support for accuracy at a small level would just 
create higher costs later on.
    Mrs. Maloney. Thank you.
    Mr. Reamer. Dr. Reamer.
    Mr. Reamer. Highly important, because most retail and 
service businesses, their market areas are quite small. So to 
analyze the investment opportunities for those businesses, you 
need a high level of accuracy.
    Mrs. Maloney. Thank you.
    Ms. Byers.
    Ms. Byers. Well, housing patterns are the things that are 
captured most correctly at the small-area level. And in order 
for counties to plan accurately and to capture all of the 
nuances of the changing population, it is absolutely important 
that the accuracy is maintained at the small area.
    Mrs. Maloney. Would each of you comment on the number of 
omissions and duplications for both population counts and for 
housing units? How important are they as measuring for 
evaluation and the census omissions and duplications for 
population counts and housing units?
    Ms. Naymark. I am glad you are not asking me to choose 
between A or B, because these are critically important as well. 
If the housing units are not correctly counted, there are lots 
of new density and zoning changes to accommodate work force 
housing and gated communities; there are lots of different 
things happening in the American housing structure. You need to 
have that in order to achieve the accuracy level. I do think 
there tends to be a bias toward undercount in the urban areas 
where you may miss housing units and the people living within 
the areas. That leads to underinvestment, lots of issues. 
Overcounting in the fringe suburbs may lead to overinvestments 
and market saturation, which doesn't help anyone. There's lots 
of practical implications. So all of these are critical.
    Mrs. Maloney. Dr. Reamer.
    Mr. Reamer. I will echo those remarks and expand on them a 
bit by saying that, in urban areas, the undercount often 
happens around multiunit buildings where there is a miscount. 
And then in suburban areas and fast-growing areas, it is just 
difficult to keep up with the count. And so it is very 
important to keep evaluating the accuracy of these things and 
finding ways to lower the level of inaccuracy.
    Mrs. Maloney. Ms. Byers.
    Ms. Byers. The missing of or the omission of housing units 
is absolutely devastating to county governments. We find that 
it creates the biggest problem because the houses that are 
notoriously missed have high-density population, with many 
children. And as we are trying to staff schools, prepare 
classrooms, and hire teachers, you hear the horror stories of 
brand-new school buildings opening up with portables in the 
back yard already. That's the reality of missing kids. And 
largely this exists because of missing housing units. And that 
omission is glaring for counties.
    Duplication is on the other end of the schematic. 
Generally, the duplication occurs in the wealthier areas, 
because everybody is very conscientious about reporting, and 
the husband and the wife are both responding, and that sort of 
skews our data notoriously because it could raise our per-
capita income and give a false reality about what the economic 
situation is in our communities.
    Mrs. Maloney. Ms. Naymark, could you comment on the net 
error at the national level? How important is that, the net 
error at the national level, in evaluating the census?
    Ms. Naymark. In business, you need to measure and audit 
your results. You need to understand in order to make the 
application. I think at the national level we need to know the 
overcount, the undercount. I think it's just critically 
important in order to have confidence in the data below the 
national level.
    Mrs. Maloney. Dr. Reamer.
    Mr. Reamer. Yes. It's a measure of the confidence we all 
can have in the census, I think. So it's important to track 
that and to try to rectify it if it's too high.
    Mrs. Maloney. Ms. Byers.
    Ms. Byers. They have said it all.
    Mrs. Maloney. I have several others, but my time is up. So 
I can continue later.
    Mr. Turner. Mr. Dent.
    Mr. Dent. No questions.
    Mr. Turner. Mrs. Maloney, if you would like to continue.
    Mrs. Maloney. OK. The national mailback rush rate, how 
important is that to the Chamber of Commerce?
    Ms. Naymark. Again, I think it's one of those measurements 
of the implementation, the components of the census that 
require additional help; the higher and earlier the response 
rate, the less costly it will be. Partnerships would be an 
important member. Paid advertising, I think, was extremely 
successful last time in getting early back response rates.
    Mrs. Maloney. Dr. Reamer.
    Mr. Reamer. I agree.
    Mrs. Maloney. Ms. Byers.
    Ms. Byers. I had the opportunity to write a column for our 
county newspaper during the mail-back response period last 
year, and referred many of our counties to a Web site that was 
being maintained by census. And I actually challenged our 
counties to check that Web site frequently to find out how 
other counties were doing in their mailback response, trying to 
set up some contests between our counties to encourage it. It 
is absolutely important. And I was very proud to see some of 
our counties actually responding to that challenge.
    But to put it bluntly, it's absolutely the most important 
thing to get an awareness of the census is to have a good 
mailback response rate.
    Mrs. Maloney. Thank you very much. I would love to see your 
article.
    Ms. Naymark, how important to business is the Black/non-
Black undercount differential as measured by demographic 
analysis? Is that an important evaluating tool in the census?
    Ms. Naymark. The differential undercount at the Black 
level? Extremely important. We missed opportunities after the 
1990 census because of the differential undercount and then 
greater undercount in urban areas. We came back and evaluated 
after the 2000 county and realized there was more there than we 
thought. And we had to do a careful analysis between the two 
censuses to see if there had been growth between, or if it was 
simply an adjustment of a count.
    Target is very active in our urban corridors, and we need 
to have good information. The differential undercount leads us 
to make inaccurate decisions about merchandising and content 
and distance, etc. It needs to be corrected.
    Mrs. Maloney. Dr. Reamer.
    Mr. Reamer. Again, for urban investment decisions, it is 
very important.
    Mrs. Maloney. Ms. Byers.
    Ms. Byers. Well, for governmental service delivery, it's 
vitally important. I remember Maynard Jackson, when he was 
mayor of Atlanta, arguing that the undercount showed--hit him 
disproportionately. He knew he had about 39,000 more people, 
because he was feeding them, clothing them, and housing them 
every day. So it is very important, especially in our urbanized 
counties.
    Mrs. Maloney. You have a lot of experience from having been 
through four censuses. It's incredible.
    And my final one that I would like the panel to evaluate 
for accuracy and evaluating the census is the use of new 
technology for nonresponse followup. How important was that, or 
is that, do you think?
    Ms. Naymark. I don't have technical expertise. I am excited 
by the use of technology and innovation. I am delighted at what 
I see the Bureau doing. I think it would be important. I am a 
paper person. I get nervous about not having a record to go 
back and followup and check on. But I'm sure that there must be 
electronic ways of verifying the electronic records as well. I 
am just pleased with what I see them doing.
    Mrs. Maloney. Dr. Reamer.
    Mr. Reamer. Anything that will raise the productivity and 
lower the cost of the census I think is valuable, and it's 
exciting to see the experiments of new technology.
    Mrs. Maloney. Ms. Byers.
    Ms. Byers. I had the opportunity to travel with the 
nonresponse enumerator in southeast Washington and do some 
housing. And it was amazing to watch this woman--who I would 
imagine had about a high school education--be able to work very 
effectively on this computer. And she was showing me exactly 
how to do things. She was very proud of it, and she would go 
into the places and sit down and pull it out and say, OK, we've 
got to put your information into the computer. So it worked 
very effectively for her. And it also, I think, maintained the 
level of accuracy that, if there was a paper copy, it might not 
have been there if she had been able to introduce more 
subjectivity into the situation.
    Mrs. Maloney. Thank you very much.
    Ms. Naymark, I was thrilled with your presentation of all 
of the things that Target was doing to draw attention to the 
2010 census. And this display of corporate, I would call 
citizenship or partnership, is something that this committee 
and Congress should be paying attention to. And what do you 
believe the Census Bureau should be doing in the 2010 census in 
order to get more corporations and independent businesses and 
so forth to be active in the 2010 census as Target was so 
active in 2000? You did a fantastic job, and I'm glad you 
brought all of the examples. But how can we get more businesses 
involved? How did Target get involved? How did it happen, and 
how can we make more people come in and help us with it?
    Ms. Naymark. Thank you for your commendation. We are very 
proud at Target of being involved in our communities. We have 
been for decades. We give $2 million a week back to our 
communities. So supporting such an important civic activity as 
the decennial census was really a no-brainer for us. As with 
most things, personal involvement, my interest from my 
demography background was what drew me in. But I think my 
greatest surprise for the 2000 census was how extensive 
business support was and had been for prior censuses.
    I think the Bureau understands how to reach out to 
business. I think working through business organizations, using 
what they did before, and certainly through government contacts 
with businesses were effective, will continue to be effective. 
Leverage the existing businesses.
    I was surprised that I wasn't asked to do a little bit more 
outreach to business communities, but I also was surprised to 
see that they had a very strong program set up for specifically 
outreach to business. It wasn't necessarily coordinated. I 
don't know if that was really a good use of Census Bureau funds 
for the 2000 census. It clearly worked. We did our own thing. 
7-Eleven did their own thing. Wal-Mart did their own thing. 
Businesses around the country all pitched in; they understood 
the importance of this. I don't know if it needs to be fixed. I 
think anything that can get business involved would be 
important.
    Mrs. Maloney. Did the Chamber of Commerce play a 
coordinating role in getting business involved?
    Ms. Naymark. I worked with the Chamber, and I believe that 
they worked within their network across the country as well. 
But I primarily worked on behalf of Target at this point in 
time.
    Mrs. Maloney. My time is up, but I do have some more 
questions for another round.
    Mr. Turner. One of the things that I think is important for 
us to know is, are we on track for the 2010 census? We have 
talked about how the census works, the information that it 
provides, opportunities for ensuring that the count is correct. 
But I would like to ask each of you your opinion as to whether 
or not you think we're on track for the 2010 census--if you see 
any warning signs or anything currently that we need to be 
concerned with as to whether or not we will be successful.
    Ms. Naymark.
    Ms. Naymark. As I said a little earlier, I am delighted 
that the American Community Survey is out in the field. I think 
that needed to be addressed and concluded before many parts of 
the 2010 census could begin planning. And now I think we are 
officially at the point where we know what the short-form 
census will look like, we know what needs to be done.
    There is a lot of good information and innovation from past 
discoveries; the reconstituted Decennial Advisory Committee 
will be ready to be in working groups and understand what the 
plan will be to react from the user and stakeholder community. 
And I believe that we are on track.
    I don't have specific knowledge; I can't say to you exactly 
what the plans are at this point, other than what the framework 
of what we heard this morning from the director. I don't have 
any reason for concern, but I do think it's time to pick up the 
pace and particularly understand how to integrate the American 
Community Survey data with the outreach and partnership 
program, with the data program, the accuracy, the estimates, 
etc.
    Mr. Turner. Dr. Reamer.
    Mr. Reamer. At Brookings, our focus has been on the 
American Community Survey. And we are very pleased to see 
that's been fully implemented, went into full implementation as 
of January. We were disappointed to see that Congress wasn't 
able to allocate funds to do the full ACS and left out money 
for group quarters. So we are hopeful that--we would see the 
ACS as being fully on track if money were allocated, the full 
amount, in the next fiscal year.
    We would like to see also some improvements made on the 
intercensal population counts because we think that will lead 
to a more accurate ACS. And, as mentioned earlier, I think a 
continuous update of the master address file would also be 
helpful as well. As I said, our focus has been on the ACS, so 
I'm not familiar with the details of the other components of 
the 2010 census so I can't comment on that.
    Ms. Byers. I think the biggest step in the right direction 
is to all short-form census for 2010, and I think that was the 
absolute correct move. ACS outreach and partnership efforts I 
think are absolutely important, and the continuous update of 
the master address file. That's one of our biggest challenges 
at county levels because of the continual growth and 
development. And we see it right here. Just in the last week we 
have seen the top 10 fastest-growing counties in this country 
released. And in order to keep abreast of that and try to 
capture that information, it has to be done in a continuous 
basis. It can't be done in the last 18 months prior to the 
mailout of the census.
    Mr. Turner. I would like Dr. Reamer's and Ms. Byers's 
thoughts on the issue of how the census data is used. We are 
making a huge national investment in this data base and in the 
information. Ms. Naymark spoke as to how businesses use it in 
making decisions for their investment. On the State and local 
level, my sense is that we can do a better job in utilizing 
this information for investment of public dollars, and our 
committee is going to look at that issue and hold hearings in 
the future as to what the census data tells us, how it can be 
utilized in decisionmaking.
    What do we need to do to do a better job of educating 
people on the State and local level and decisionmaking 
processes, and how this data can be used so we can make certain 
that our public dollar investments are wisely spent? Ms. Byers.
    Ms. Byers. Well, I think the very quick answer to that is 
that there is somebody in every county government and every 
city government in the country who recognizes the value of the 
census data already. I think what you are talking about is a 
broader outreach to our elected officials and other people who 
are not aware of it.
    Census data is absolutely important to every decision 
that's made at the local government. No place else in the world 
can local governments get the kind of data on a uniformed basis 
across counties, across cities, that the Census Bureau 
provides.
    I think it is the biggest thing that we can do, and the 
step has already been made because there is an outstanding 
publication on the census Web site right now, the State and 
local handbook that refers them to ACS. Now, I stumbled on it 
on the Web site. I think promoting that information and getting 
it in the hands of all of our local officials so that they can 
educate themselves about the absolute value is important. Our 
planners know; our community and economic development directors 
know; our human resources people know. These folks already know 
the value of census because they use that data every single 
day. By I agree with you, it needs to be in outreach to the 
elected officials.
    Mr. Reamer. I had a jarring experience this weekend. I 
bumped into a colleague who just stepped down from heading a 
planning department for a medium-sized city. And I hadn't 
really talked to him since I had been at Brookings. And he 
said, what are you doing? And I explained. And he said, you 
know, the issue with the census data is it only comes out once 
every 10 years. And I'm going, ``Well, have you heard of the 
American Community Survey?'' And here is the head of a planning 
department who had not, and I was shocked.
    But that speaks to the notion that there is still a need to 
reach even the upper-level planners. I think the lower-level 
ones do know. And to then start setting up processes by which 
those officials and their elected leaders are basing decisions 
and basing annual assessments of local conditions on these new 
data.
    And as I said in my testimony also, these data will be 
different than what were previously released. We are going to 
see 5-year rolling averages for neighborhoods. In past years in 
the long form you got a point estimate for a neighborhood, for 
this is the education level, this is the income level, and so 
forth. The way the ACS works is you don't get enough households 
in a census track until you do this for 5 years.
    So teaching planners how to use 5-year rolling averages, 
teaching planners how to look at there is another innovation 
here of the Census Bureau is going to be providing confidence 
intervals. They are saying these are estimates, and people in 
the past have taken the number and taken that as the gospel 
truth. So the Bureau is coming out with there is a 90 percent 
chance that the actual number will be between this upper and 
lower bound.
    And so planners need to learn how to work with this notion 
of a confidence interval. This is new stuff for a lot of 
people, and so I think that the Bureau can provide assistance 
that I think is needed.
    Mr. Turner. Concluding questions for Mrs. Maloney.
    Mrs. Maloney. Thank you.
    Dr. Reamer, would you explain to the committee why the 
accuracy of the intercensal estimates is important for the 
quality of the American Community Survey?
    Mr. Reamer. My understanding is the American Community 
Survey is sent out to a sample, and in the basis of that you 
get a sense of a distribution of certain characteristics within 
a population; what percent of people have a high school degree, 
what percent of people earn above a certain level, and so 
forth. And you get percentages. But to translate those 
percentages into estimates regarding numbers, you need a total 
population count so you can say, you know, there are 1,000 
people here, you know, 30 percent have a high school degree; 
that means 300 have a high school degree. So the numbers are 
important that way. They are the controls by which the ACS 
figures are weighted.
    Mrs. Maloney. And, Dr. Reamer, today we have talked quite a 
bit about the census master address file. And can you explain 
to the committee why an accurate master address file is so 
important?
    Mr. Reamer. Well, for two reasons. One is that the master 
address file is the universe of households in the country. So 
it's the file from which the ACS sample is drawn. And the 
census 2000 forms go out to all those addresses. So the 
accuracy of the master address file dictates the validity of 
the sample and the comprehensiveness of the 2010 census. Also, 
the master address file, if it were updated on a regular basis, 
would inform, improve, the intercensal population estimates.
    Mrs. Maloney. So updating is very important.
    Mr. Reamer. Yes.
    Mrs. Maloney. And, Dr. Reamer, there are a number of 
commercial firms that sell data similar to that produced by the 
census. Claritas is one of those companies that I'm aware of. 
And can you explain how these companies use census data and how 
their products differ? Are you familiar with that at all?
    Mr. Reamer. A bit. Not as much as some others. But 
basically Claritas, you mentioned, has built a whole business 
around taking long-form data and doing what the ACS is doing 
now, filling in each year with estimates based on other data 
sources. And so in many, many businesses and governments use 
Claritas data to do analysis because they are adding value to 
the traditional census data. So there is a big business around 
that.
    I assume that they will take an added value to the ACS as 
well.
    Mrs. Maloney. And, Ms. Byers, what role did NACo play in 
helping communities participate in the 2000 LUCA program? And 
has your organization been contacted by the Census Bureau to 
help prepare for the 2010 LUCA program?
    Ms. Byers. Well, NACo played a very positive and, we hope, 
large role in preparation for the LUCA updates in 2000. We 
wrote several columns. We worked closely with our State 
associations to educate individuals, and we worked with the 
regional offices around the country to help pull together 
governmental groups. And we supported strongly the creation of 
local census groups in cities, counties, and regions to work on 
this together.
    We also asked and were able to review any of the 
correspondence that was going out from the Census Bureau so 
that we could eliminate a little of the gobbledygook to make it 
a little bit more intelligible to our local officials. So that 
was what we did do.
    So far, we have not been approached. NACo has had a seat on 
the Decennial Census Advisory Committee since its creation. We 
anticipate that if we are invited to participate in the newly 
constructed advisory committee, that we will be asked again to 
help them with this process.
    Mrs. Maloney. And, Ms. Naymark, why is the accuracy of 
small-error data from the census or from the ACS so important 
to your company, and, I would say, other companies? Why is it 
so important to you? You mentioned earlier it was important to 
you.
    Ms. Naymark. I will tie it in to the question that you 
asked just a moment ago about the outside data companies, 
Claritas and other data vendors. The accuracy of their 
estimates is based on the accuracy of the census itself. We 
often will be looking at subcounty or small-city areas down to 
5,000; census tracks smaller geographic units. And we must 
understand the differences, the dividing lines, when a 
neighborhood starts to transition, when you are moving from an 
urban to--along the urban continuum to a fringe area, and to be 
able to track and identify the turnover that's occurring from 
an older to a younger neighborhood.
    Many new Americans are joining our outlying suburban areas. 
There is lots of new patterns of migration streams, etc., that 
would be extremely difficult to track.
    Right now the data vendors take 2000 census information and 
they build models and extrapolate and trend. But they will be 
the first to tell you that by 2005, you know, it's 5 years 
later. And so the integration of the American Community Survey 
data for short and long-form information will be absolutely 
critical, as they are the primary delivery agent to the 
business community, these value-added processors. They just 
make it easier to grab the information and rearrange it in the 
ways that business needs it in a very speedy fashion. So 
accuracy is key.
    Mrs. Maloney. And, Mr. Chairman, from the line of your 
questioning today, I am very, very pleased to hear that you are 
interested in my bill, but it's a little late to pass this bill 
for the 2010 census. The Census Bureau has already taken off 
the table the possibility of correcting the errors in the 
census, and I believe this puts a partisan stain on this census 
that cannot be removed. Even the GAO has said that there was no 
basis for that decision.
    And I would be happy to work with you to produce a bill 
that has no partisan implications. And, again, I thank you for 
moving forward with an oversight hearing this early. I think 
it's important. The census is important. Our panelists have 
pointed out how it's so important to the businesses and the 
governments and the people of our country, and it's important 
that we get it as accurate as possible. So I thank you.
    And now we want to hear from Carolyn, if she has a complete 
report. It's great you were here, Carolyn.
    Mr. Turner. Thank you, Mrs. Maloney, for recognizing my 
daughter again.
    I want to give you each an opportunity if you would like to 
put anything else on the record in closing. Do you have any 
closing remarks for us today?
    Ms. Naymark. I appreciate the opportunity to be here today. 
I think it's wonderful that there are a couple of hearings 
scheduled on key components of the 2010 census. I am glad 
people are paying attention. The stakeholder community is 
ready, eager, willing to support an accurate program. And thank 
you very much.
    Mr. Turner. Thank you.
    I want to thank each of you for taking your time to share 
with us the important issues of your work with respect to the 
census, and those who spoke on panel I. I appreciate your 
willingness to share your knowledge, experiences, and thoughts 
with us today.
    And contrary to Mrs. Maloney's comments, I think the record 
today reflects that there is not any partisan aspect of what we 
reviewed today in the preparation of the 2010 census that will 
lessen or have any impact upon our successes.
    There is a lot involved in planning the 2010 census, and I 
am pleased to see that the Bureau is making every effort to 
assure that this decennial census is the most successful yet. I 
am encouraged by the implementation of the American Community 
Survey and its promise to provide characteristic data with the 
short-form census, and it will provide the best population 
enumeration.
    Also, I am pleased to hear that the MAF/TIGER portion of 
the decennial is ahead of schedule and will allow for a better 
layout of this Nation for the purposes of mapping and data 
collection. However, we are not out of the woods yet. Clearly, 
obstacles remain. But I am confident that by working together 
we can ensure that the 2010 census is the best census ever.
    Again, I want to express my thanks to our witnesses for 
their time today. In the event that we may have additional 
questions that we do not have time for today, the record will 
remain open for 2 weeks for submitted questions and answers. I 
want to thank you all for attending. And this committee will 
continue its efforts in looking at the census and the 
usefulness of it as a tool both for State and local governments 
and for businesses and economic decisions.
    Thank you so much. We will be adjourned.
    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Wm. Lacy Clay and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T3945.040

[GRAPHIC] [TIFF OMITTED] T3945.041

[GRAPHIC] [TIFF OMITTED] T3945.042

[GRAPHIC] [TIFF OMITTED] T3945.043

[GRAPHIC] [TIFF OMITTED] T3945.044

[GRAPHIC] [TIFF OMITTED] T3945.045

[GRAPHIC] [TIFF OMITTED] T3945.046

[GRAPHIC] [TIFF OMITTED] T3945.047

[GRAPHIC] [TIFF OMITTED] T3945.048

[GRAPHIC] [TIFF OMITTED] T3945.049

[GRAPHIC] [TIFF OMITTED] T3945.050

[GRAPHIC] [TIFF OMITTED] T3945.051

[GRAPHIC] [TIFF OMITTED] T3945.052

[GRAPHIC] [TIFF OMITTED] T3945.053

[GRAPHIC] [TIFF OMITTED] T3945.054

[GRAPHIC] [TIFF OMITTED] T3945.055

[GRAPHIC] [TIFF OMITTED] T3945.056

[GRAPHIC] [TIFF OMITTED] T3945.057

[GRAPHIC] [TIFF OMITTED] T3945.058

[GRAPHIC] [TIFF OMITTED] T3945.059

[GRAPHIC] [TIFF OMITTED] T3945.060

[GRAPHIC] [TIFF OMITTED] T3945.061

[GRAPHIC] [TIFF OMITTED] T3945.062

[GRAPHIC] [TIFF OMITTED] T3945.063

[GRAPHIC] [TIFF OMITTED] T3945.064

[GRAPHIC] [TIFF OMITTED] T3945.065

[GRAPHIC] [TIFF OMITTED] T3945.066

                                 <all>

</pre></body></html>
